Department of Homeland Security
   Ofﬁce of Inspector General

                DHS Financial Assistance to the
            Association of Community Organizations
               for Reform Now (ACORN) and Its
                            Affiliates




OIG-11-10                                     November 2010
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                         NOV 10 2010                         Homeland
                                                             Security

                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of I 978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report was prepared in response to a request from Senator Susan Collins and
Representative Darrell Issa. It addresses the strengths and weaknesses ofthe Federal
Emergency Management Agency's Fire Prevention and Safety grant awarded to ACORN
Institute. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                       tt~?(K~J?
                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 
 


Background ........................................................................................................................ 2 
 


Results of Audit ................................................................................................................. 3 
 


     Award Procedures for the ACORN Institute Fire Prevention and Safety Grants ........ 3 
 

     Recommendations ........................................................................................................ 7 
 

     Management Comments and OIG Analysis ................................................................ 8 
 


     ACORN Institute’s Actions to Implement and Evaluate Its FY 2007 Grant Project .. 9 

     Recommendations ...................................................................................................... 11 

     Management Comments and OIG Analysis .............................................................. 11 


     ACORN Institute’s FY 2007 Grant Expenses ........................................................... 11 
 

     Recommendations ...................................................................................................... 12 
 

     Management Comments and OIG Analysis .............................................................. 12 
 


     Future Grants Activity with ACORN Institute .......................................................... 13 
 

     Recommendation ....................................................................................................... 13 
 

     Management Comments and OIG Analysis .............................................................. 13 
 



Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 15 
 

     Appendix B:           Management Comments to the Draft Report ..................................... 17 
 

     Appendix C:           DHS OIG Response to Congressional Request ................................. 20 
 

     Appendix D:           DHS OIG Analysis of Technical Evaluation Panel Scores ............... 22 
 

     Appendix E:           ACORN Institute – FY 2007 Grant Implementation Plan ................. 23 
 

     Appendix F:           ACORN Institute – FY 2007 Grant Evaluation Plan ......................... 25 
 

     Appendix G:           Major Contributors to This Report .................................................... 26 
 

     Appendix H:           Report Distribution ............................................................................ 27 
 



Abbreviations
     ACORN                 Association of Community Organizations for Reform Now 
 

     DHS                   Department of Homeland Security 
 

     FEMA                  Federal Emergency Management Agency 
 

     FY                    Fiscal Year            
         

     OIG                   Office of Inspector General 
 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                In response to a request from Senator Susan Collins and
                Representative Darrell Issa, we audited the appropriateness of
                financial assistance provided by the department to the Association
                of Community Organizations for Reform Now (ACORN) and its
                affiliates. We identified one $450,484 grant awarded to the
                ACORN Institute under the competitive Fire Prevention and Safety
                Grant Program. The department provided no other financial
                assistance to the Association of Community Organizations for
                Reform Now or its affiliates.

                The fiscal year 2007 grant to ACORN Institute was for a pilot
                program that would develop best practices for community
                organizations to canvass high-risk neighborhoods and distribute
                and install safety equipment, such as smoke detectors or fire
                extinguishers. We concluded that the ACORN Institute should not
                have received these funds, did not fully implement and evaluate
                the program as approved, and could not substantiate all its grant
                expenditures. The Federal Emergency Management Agency did
                not have sufficient oversight processes to prevent the award or to
                fully evaluate the use of the grant money.

                We are making four recommendations aimed at improving the
                selection and oversight processes for the Fire Prevention and
                Safety Grants Program.

                Also, we are recommending that the Federal Emergency
                Management Agency review all of ACORN Institute’s grant
                expenditures, take action to recover any unsubstantiated expenses,
                and determine whether any action is necessary to suspend or debar
                ACORN Institute from receiving future DHS, FEMA, and other
                federal government assistance. The Federal Emergency
                Management Agency concurred with six recommendations, and
                will be assigning staff to review the remaining recommendation.
                The agency’s comments to the draft report are included in
                Appendix B.




               DHS Financial Assistance to the Association of Community 
 

               Organization for Reform Now (ACORN) and Its Affiliates
 


                                        Page 1
 

Background
              Through its Assistance to Firefighters Grant Program, the Federal
              Emergency Management Agency (FEMA) awards grants to fire
              departments and community organizations to enhance the
              opportunity to protect the public and fire service personnel from
              fire and related hazards. Funds are available under three types of
              grants: Assistance to Firefighters Grants, Staffing for Adequate
              Fire and Emergency Response Grants, and Fire Prevention and
              Safety Grants.

              Fire Prevention and Safety Grants are awarded competitively with
              the goal of targeting high-risk populations to reduce injury and
              prevent death. Since Fiscal Year (FY) 2003, FEMA has awarded
              more than $239 million to more than 2,200 grantees.

                                            Total Number of              Total Award
                    Award Year
                                               Grantees                    Amount
                      FY 2003                     467                     $27,326,316
                      FY 2004                     532                     $35,234,823
                      FY 2005                     311                     $33,766,287
                      FY 2006                     226                     $37,332,763
                      FY 2007                     216                     $34,014,723
                      FY 2008                     224                     $36,394,484
                      FY 2009                     233                     $35,025,327

              The Association of Community Organizations for Reform Now
              Incorporated (ACORN Inc.) is a nonprofit community organization
              founded in 1970. ACORN Inc. has organized low- to moderate-
              income citizens as advocates for their communities, and is mainly
              involved with projects related to discrimination, affordable
              housing, quality education, and better public services. Hundreds of
              affiliates, such as the ACORN Institute, use the ACORN brand.

              After suspicions arose that ACORN Inc. was involved in
              fraudulent activities, the U.S. Senate voted on September 15, 2009,
              to discontinue funding from the Department of Housing and Urban
              Development to ACORN Inc. Additional actions to sever ACORN
              Inc.’s association with the federal government came on
              September 11, 2009, when the Census Bureau barred ACORN Inc.
              from assisting with the 2010 Census; September 15, 2009, when
              the U.S. House of Representatives voted to discontinue any
              funding for ACORN Inc.; and September 23, 2009, when the
              Internal Revenue Service removed ACORN Inc. from its volunteer


             DHS Financial Assistance to the Association of Community

             Organization for Reform Now (ACORN) and Its Affiliates


                                      Page 2

                 tax assistance program. As of April 1, 2010, ACORN Inc.
                 reported that it will close its offices across the United States.

                 ACORN Institute was founded in 2000 and is a 501(c)(3)
                 community organization headquartered in New Orleans, LA. This
                 organization was created to advocate for economic and social
                 improvements for low- to moderate-income individuals through
                 research and training to combat poverty, discrimination, and
                 community deterioration in low-income areas.

                 Appendix A provides additional details on the purpose, scope, and
                 methodology of this audit. Answers to specific questions from
                 Senator Collins and Representative Issa are in Appendix C.


Results of Audit
     Award Procedures for the ACORN Institute Fire Prevention and
     Safety Grants
          FEMA’s Fire Prevention and Safety Grants are intended for fire
          departments and community organizations recognized for their experience
          and expertise in fire prevention and safety. ACORN Institute, a
          community organization, applied to this grant program in FY 2007 and
          FY 2008 and was awarded grants in both fiscal periods. However, given
          the lack of experience ACORN Institute demonstrated in fire prevention
          and safety and its unconfirmed collaboration with experts in this area,
          FEMA should not have awarded these grants to ACORN Institute. FEMA
          relied on the integrity of this applicant to self-certify that the information
          in its grant application was accurate, and as is FEMA’s general practice,
          did not perform any checks of the information provided. As a result,
          FEMA was unaware that ACORN Institute was not involved in the
          activities it used to support its experience, or that all of the partnerships
          ACORN Institute claimed to have were not in place.

          The Technical Evaluation Panel that reviewed ACORN Institute’s FY
          2007 Fire Prevention and Safety Grant application recommended it not be
          funded. After reviewing the FY 2008 application, the Technical
          Evaluation Panel recommended that ACORN Institute be awarded the
          grant only if certain conditions were met. For both fiscal periods, FEMA
          overrode the panel’s recommendations and awarded the grants to ACORN
          Institute without documenting how the Technical Evaluation Panel’s
          concerns would be addressed or providing the basis for its decision to
          award these grants.


                DHS Financial Assistance to the Association of Community
 

                Organization for Reform Now (ACORN) and Its Affiliates
 


                                         Page 3
 

 ACORN Institute Experience in Fire Prevention and Safety

 In its FY 2007 grant application, ACORN Institute attributed its
 experience in fire prevention and safety to the Urban Fire
 Initiative, described as a partnership between ACORN Institute
 and local fire departments. ACORN Institute claimed that the
 Urban Fire Initiative had been involved with several projects and
 credited the initiative with the following:

 ¾	 	Developing and implementing a successful FEMA-funded fire
     prevention program in Madison County, NC, where it worked
     with the local fire department.

 ¾	 	Gutting more than 3,000 homes in New Orleans to remove 

     debris and hazardous materials following Hurricane Katrina. 


 ¾	 	Assisting the City of Berkeley, CA, fire department in a
     FEMA-funded program to design and implement a protocol for
     a fire prevention program.

 ¾	 	Designing and developing programs to educate hundreds of 

     daycare providers about fire prevention. 


 ¾	 	Sponsoring community meetings on fire safety in coordination
     with local firefighters and officials.

 Discussions with the executive director for ACORN Institute and
 the principals for a consulting firm ACORN Institute hired to work
 on the project revealed that the Urban Fire Initiative did not exist
 prior to the grant application, but was created specifically for
 activities funded by the FY 2007 Fire Prevention and Safety Grant.
 Neither ACORN Institute nor the Urban Fire Initiative was
 involved in any of the above activities and events. No other
 evidence was available to show that ACORN Institute had been
 involved in any fire prevention and safety activities or had
 experience in this area.

 ACORN Institute Collaboration With Local Fire Departments

 When considering applicants for its Fire Prevention and Safety
 Grants, FEMA gives priority to organizations that incorporate
 partners with expertise in fire prevention and safety into its project.
 Partnerships are seen as an opportunity to enhance the
 development, delivery, success, and completion of projects.


DHS Financial Assistance to the Association of Community

Organization for Reform Now (ACORN) and Its Affiliates


                         Page 4

                             ACORN Institute claimed in its FY 2007 grant application that it
                             had existing partnerships with local fire departments in the cities
                             where it would pilot its proposed project. However, there was no
                             evidence that these partnerships were in place at the time the
                             application was submitted.

                             According to ACORN Institute’s Final Grant Report1 and the Time
                             and Effort sheets prepared by its staff, these partnerships were not
                             in place in every city during the grant performance period. In the
                             Final Grant Report, ACORN Institute detailed how fire
                             departments in two of five pilot cities did not cooperate and
                             participate in the project. Further, in their Time and Effort sheets,
                             the Urban Fire Initiative staff documented the challenges and
                             difficulties that the ACORN Institute experienced in finding
                             partners among local fire departments. Despite the claims in its
                             grant application, the ACORN Institute did not have partners in all
                             the pilot cities, which limited the expertise and experience
                             available to run this program in those cities.

                             FEMA Reliance on Claims Made in Grant Applications

                             FEMA used information from ACORN Institute’s application to
                             qualify it for the grant. The only assurance FEMA had for the
                             legitimacy of claims ACORN Institute made about its experience
                             and partners was self-certification of the applicant. FEMA has no
                             requirement or standard procedure in the evaluation process of the
                             Fire Prevention and Safety grant applications to validate the
                             legitimacy of significant claims and assertions used to qualify an
                             applicant for the grant. FEMA based the eligibility of its
                             applicants solely on unverified claims they made in their grant
                             applications.

                             Before grant applications are accepted into FEMA’s electronic
                             system, applicants are required to certify that the information in
                             their submission is accurate by checking a box. However,
                             evidence that applicants actually checked this box is not captured
                             in, or retrievable from, the system. The certification process would
                             be more effective if such a warning were included in the Assurance
                             and Certification Section of the application and captured within the
                             system.




1	
     At the time of our audit, the Final Grant Report was in draft form and had not been submitted to FEMA
     for review.

                           DHS Financial Assistance to the Association of Community
 

                           Organization for Reform Now (ACORN) and Its Affiliates
 


                                                    Page 5
 

 FEMA’s Decision to Override the Technical Evaluation 

 Panel’s Recommendation 


 Every eligible application submitted for the Fire Prevention and
 Safety Grant is evaluated by a Technical Evaluation Panel. The
 panel consists of a group of fire service experts who score each
 project based on its merits or shortcomings. FEMA makes the
 final decision to award grants to applicants based on how the
 Technical Evaluation Panel ranks the project and the impact the
 proposed activities would have on the safety of the target audience.

 When the Technical Evaluation Panel reviewed ACORN
 Institute’s FY 2007 application, it recommended that the
 application not be funded. However, FEMA overrode the panel’s
 recommendation and awarded the grant without documenting how
 it addressed the Technical Evaluation Panel’s concerns. The
 Technical Evaluation Panel was concerned about the proposed
 project’s effectiveness, and made comments such as the following:

 ¾	 	“The program appears to rely on grant funding for 

     sustainability.” 


 ¾	 	“The costs for Personnel and Equipment are high compared to
     only a small portion for Safety Equipment.”

 ¾	 	“I am concerned about the organization’s answer of ‘yes’ to 

     receiving federal funding from another program.” 


 ¾	 	“Should non-fire personnel conduct safety assessments?”

 FEMA reduced ACORN Institute’s initial request of $1 million to
 $450,484, and noted that ACORN Institute was awarded the
 FY 2007 grant because the proposal was a “concentrated effort for
 prevention in high risk communities.”

 To put in perspective how this proposal compared to other
 community organizations’ proposals, we selected a random sample
 of 30 community organizations for review (see Appendix D). Five
 of the 30 organizations that proposed similar smoke alarm
 campaigns in high-risk areas received higher scores than ACORN
 Institute from the Technical Evaluation Panel. However, only one
 of these five organizations received an award (for $384,800).
 Despite the fact that the other four organizations received higher
 scores, there was no documented justification why ACORN


DHS Financial Assistance to the Association of Community

Organization for Reform Now (ACORN) and Its Affiliates


                         Page 6

     Institute was selected for this competitive grant over these other
     organizations.

     In its review of the FY 2008 applications, the Technical Evaluation
     Panel again expressed concerns about ACORN Institute’s request
     for funds and withheld a recommendation to fund until certain
     conditions were met. The Technical Evaluation Panel was
     concerned with the lack of information on the ACORN Institute’s
     FY 2007 performance and outcomes. The panel expected FEMA
     to address certain conditions before approving the grant, including
     a reduction in the grant amount and revised measurements for the
     grantee’s evaluation plan. FEMA again overrode the Technical
     Evaluation Panel’s recommendation and approved the grant
     without documenting how the panel’s concerns would be
     addressed.

     FEMA has no guidelines or policies that require staff to document
     the basis of decisions to award grants that are contrary to Technical
     Evaluation Panel recommendations, or how the panel’s concerns
     are to be addressed. Such guidelines would minimize the risk of
     criticism over the selection process and provide some assurance
     that selections met the criteria for a competitive grant.

Recommendations
     We recommend that the Assistant Administrator, Grant Programs
     Directorate:

     Recommendation #1: Implement procedures to confirm the
     accuracy of significant assertions used as the basis for determining
     grant applicants’ eligibility.

     Recommendation #2: Revise the Assurance and Certification
     section of the grant application to document and retain evidence
     that applicants acknowledge and certify that they understand the
     consequences and penalties for including inaccurate information in
     their applications.

     Recommendation #3: Establish policies and procedures that
     require staff to document justifications to override substantive
     concerns and recommendations made by the Technical Evaluation
     Panel.




    DHS Financial Assistance to the Association of Community
 

    Organization for Reform Now (ACORN) and Its Affiliates
 


                             Page 7

Management Comments and OIG Analysis
     FEMA’s Comments to Recommendation #1: FEMA concurred
     with incorporating additional language to the assurance page to
     comply with this recommendation by using the methodology
     discussed in Recommendation #2. FEMA stated it cannot perform
     a complete review of all assertions within an application and also
     award 5,000 grants yearly. Assertions made in the application will
     be reviewed through FEMA’s grant monitoring tools and, if
     necessary, any and all grants will be canceled if it is determined
     that the applicant has misrepresented information provided on the
     application.

     OIG Analysis: The steps FEMA plans to take satisfy the intent of
     this recommendation. However, since a timeframe for
     implementing these steps has not been established, this
     recommendation is unresolved, and will remain open until FEMA
     provides documentation that shows corrective actions have been
     completed.

     FEMA’s Comments to Recommendation #2: FEMA concurred
     with this recommendation and agreed to work with the FEMA
     Office of Chief Counsel to review the Assurance and Certification
     section of the grant application to document and retain evidence
     that applicants acknowledge and certify that they understand the
     consequences and penalties for including inaccurate information in
     their applications.

     OIG Analysis: The steps FEMA plans to take satisfy the intent of
     this recommendation. However, since a timeframe for
     implementing these steps has not been established, this
     recommendation is unresolved, and will remain open until FEMA
     provides documentation that shows corrective actions have been
     completed.

     FEMA’s Comments to Recommendation #3: FEMA concurred
     with this recommendation and agreed to revise policies and
     procedures that require staff to document justifications to override
     substantive concerns and recommendations by the Technical
     Evaluation Panel. The revised policies will be in place within
     60 days of FEMA’s response. According to FEMA, the
     justifications were documented in the past; however, the new
     policy and procedures will assist with ensuring the justifications in
     the future are more fulsome and clear.


    DHS Financial Assistance to the Association of Community
 

    Organization for Reform Now (ACORN) and Its Affiliates
 


                             Page 8

            OIG Analysis: The steps FEMA plans to take satisfy the intent of
            this recommendation. This recommendation is resolved, but will
            remain open until FEMA provides documentation that shows
            corrective actions have been completed.


ACORN Institute’s Actions to Implement and Evaluate Its
FY 2007 Grant Project
     ACORN Institute was awarded the FY 2007 Fire Prevention and Safety
     Grant to run a pilot program that would develop best practices for
     community organizations to canvass high-risk neighborhoods and
     distribute and install safety equipment, such as smoke detectors and fire
     extinguishers. As required by the terms of the grant, ACORN Institute
     was to implement and evaluate the project as proposed in its approved
     application. However, ACORN Institute did not perform tasks for two
     activities as proposed, and did not obtain approval from FEMA to deviate
     from the plan. In addition, ACORN Institute committed to reporting on
     seven project goals to measure the progress and effectiveness of the pilot
     program but did not report on two of the seven goals. Since this grant was
     not selected for an oversight visit, FEMA was not aware that ACORN
     Institute was not fully implementing and evaluating the project as it was
     approved.

            ACORN Institute Project Implementation

            The terms and conditions of the FY 2007 Fire Prevention and
            Safety Grant required ACORN Institute to use the grant funds to
            conduct activities described in the narrative of its approved grant
            application (see Appendix E). Two of the five activities ACORN
            Institute was expected to complete were to (1) recruit community
            volunteers who would be trained by the local fire departments, and
            (2) design and implement a program to generate requests for in-
            home audits, which would be conducted by the trained volunteers
            and local fire departments.

            Both activities involved volunteers who would be trained by the
            local fire departments. However, this training never took place.
            The only evidence that some sort of training did occur were the
            training sessions for ACORN Institute’s Urban Fire Initiative staff,
            conducted by a consulting firm ACORN Institute hired to work on
            this project. Also, it was the Urban Fire Initiative staff that
            performed the in-home audits, which was a deviation from the plan
            to include the local fire departments in these inspections. FEMA
            did not approve these changes.

           DHS Financial Assistance to the Association of Community

           Organization for Reform Now (ACORN) and Its Affiliates


                                    Page 9

 ACORN Institute Reporting

 ACORN Institute was also required to capture the results of seven
 specific goals to evaluate the progress and effectiveness of the
 project (see Appendix F). ACORN Institute did not report
 activities for two of the goals and could not explain why this
 information was not available. One of the goals required that data
 be compiled on the number of requests for in-home fire safety
 audits. The other goal was to document the number of participants
 present at fire safety demonstrations during community events.

 FEMA Monitoring of Grantee

 FEMA generally focuses its financial and programmatic oversight
 on recipients of large grants rather than using a risk analysis to
 identify necessary oversight. Some of FEMA’s additional
 considerations in its selection process include the following:

 ¾	 	Geographical location to ensure all regions throughout the 

     United States receive coverage; 


 ¾	 	Complaints about grantees; and

 ¾	 	The Wagon-Wheel-Approach: grantees are selected for an
     audit if they are located in the vicinity of another grantee being
     audited.

 FEMA did not select ACORN Institute’s FY 2007 grant to be
 monitored. FEMA’s selection process does not consider sufficient
 indicators of potential problems or high risk. For example,
 ACORN Institute’s inexperience in the program and the concerns
 the Technical Evaluation Panel expressed when evaluating the
 FY 2007 Fire Prevention and Safety grant application are
 indicators of potential issues, but FEMA did not consider them in
 its selection process. Using indicators of risk as part of its
 selection process would help FEMA to identify and correct issues
 that may arise.

 According to FEMA officials, FEMA has moved to a risk-based
 protocol in selecting the grants it will monitor. This protocol will
 enable FEMA to concentrate its efforts and resources in providing
 the appropriate level of oversight based on the assessed risk levels
 of grants. DHS OIG will evaluate the adequacy of FEMA’s new
 risk-based protocol at a later date.


DHS Financial Assistance to the Association of Community

Organization for Reform Now (ACORN) and Its Affiliates


                        Page 10

     Recommendations
            We recommend that the Assistant Administrator, Grant Programs
            Directorate:

            Recommendation #4: Incorporate key factors or indicators, such
            as the grantees’ experience with the program and known concerns
            about the grantee, in FEMA’s risk-based approach to select
            grantees for inclusion in its monitoring plan.

     Management Comments and OIG Analysis
            FEMA’s Comments to Recommendation #4: FEMA concurred
            with this recommendation and agreed to incorporate key factors
            and indicators, such as grantees’ experience with the program and
            known concerns about the grantee, in FEMA’s risk-based approach
            to select grantees for inclusion in its monitoring plan.

            OIG Analysis: The steps FEMA plans to take satisfy the intent of
            this recommendation. However, since a timeframe for
            implementing these steps has not been established, this
            recommendation is unresolved, and will remain open until FEMA
            provides documentation that shows corrective actions have been
            completed.

ACORN Institute’s FY 2007 Grant Expenses
     ACORN Institute received $450,484 from the FY 2007 Fire Prevention
     and Safety Grant. However, ACORN Institute does not have
     documentation to support how it spent $160,797 of the grant funds.

     Office of Budget and Management Circular A-110 requires federal grant
     recipients to maintain records of their grant expenditures. ACORN
     Institute recorded only $449,721 of its expenses in a general ledger used to
     track expenditures for the FY 2007 grant—$763 short of the $450,484
     amount it received. OIG selected $338,675 of the recorded expenses to
     review and received documentation from ACORN Institute, such as
     canceled checks, invoices, employee timesheets, and bank statements, to
     support only $178,641 of this amount. Therefore, $160,034 of the funds
     we selected for review were unsupported.

     To ensure that ACORN Institute did not misuse the grant funds, a
     thorough review of the grant expenses, along with the $111,046 of grant
     funds OIG did not select for review, is needed. After the completion of
     our fieldwork, we were advised by the ACORN Institute that additional

           DHS Financial Assistance to the Association of Community

           Organization for Reform Now (ACORN) and Its Affiliates


                                   Page 11

documentation supporting expenditures was identified by the ACORN
Institute. FEMA should consider this additional documentation in its
review for allowability and appropriateness of expenditures. Should
FEMA determine that ACORN Institute inappropriately spent funds from
this grant, action must be taken to recover the unsubstantiated amount.

Recommendations
       We recommend that the Assistant Administrator, Grant Programs
       Directorate:

       Recommendation #5: Require ACORN Institute to return
       $160,797 in unsubstantiated grant expenses,

       Recommendation #6: Review documentation for the remaining
       $111,046 of grant funds, and if unsupported by appropriate
       expenses that can be documented, require ACORN Institute to
       return the funds.

Management Comments and OIG Analysis
       FEMA’s Comments to Recommendation #5: FEMA could not
       make the determination to concur or non-concur without a
       thorough review of the documentation from the OIG site visit.
       FEMA will request the necessary documentation for the
       unsubstantiated grant expenses from the ACORN Institute. A team
       of specialists within FEMA will review the material, and if the
       grantee cannot provide additional supporting justification for the
       expenses, FEMA will request the funds be returned.

       OIG Analysis: The steps FEMA plans to take satisfy the intent of
       this recommendation. OIG will provide FEMA a report on grant
       expenses ACORN Institute could not support with adequate
       documentation. Since a timeframe for implementing these steps
       has not been established, this recommendation is unresolved, and
       will remain open until FEMA provides documentation that shows
       corrective actions have been completed.

       FEMA’s Comments to Recommendation #6: FEMA concurred
       with this recommendation. FEMA will request the necessary
       documentation for the remaining grants expenditures from the
       ACORN Institute. A team of specialists within FEMA will review
       the materials, and if the grantee cannot provide additional
       supporting justification for the expenses, FEMA will request the
       funds be returned.

      DHS Financial Assistance to the Association of Community
 

      Organization for Reform Now (ACORN) and Its Affiliates
 


                              Page 12

            OIG Analysis: The steps FEMA plans to take satisfy the intent of
            this recommendation. OIG will provide FEMA a report on grant
            expenses in ACORN Institute’s accounting records not selected for
            review. Since a timeframe for implementing these steps has not
            been established, this recommendation is unresolved, and will
            remain open until FEMA provides documentation that shows
            corrective actions have been completed.

Future Grants Activity with ACORN Institute
     We identified serious issues with ACORN Institute’s application,
     execution, and reporting for the Fire Prevention and Safety grant. The
     ACORN Institute did not have the experience in fire prevention and safety
     activities as stated in its grant application, and did not have partnerships
     with local fire departments in place at the time of its application. ACORN
     Institute did not fully implement and evaluate the program as approved,
     and did not obtain approval from FEMA to deviate from the plan. It did
     not perform tasks for two activities as proposed, specifically, it did not
     provide training to volunteers by local fire departments, and performed in-
     home audits using Urban Fire Initiative staff instead of local fire
     departments. In addition, the ACORN Institute could not substantiate
     $160,034 of grant expenditures we selected for review.

     Based on these deficiencies in applying for, executing, and supporting
     expenses for the grant, FEMA should evaluate the appropriateness of
     ACORN Institute’s eligibility to receive future grants from FEMA.

     Recommendation
            We recommend that the Assistant Administrator, Grant Programs
            Directorate:

            Recommendation #7: Upon completion of a review of all
            ACORN Institute expenses to determine eligibility and
            supportability, and assessing ACORN Institute’s actions regarding
            its application for and execution of the grant, determine whether
            any action is necessary to suspend or debar ACORN Institute from
            receiving future DHS, FEMA, and other federal government
            assistance.

     Management Comments and OIG Analysis
            FEMA’s Comments to Recommendation #7: FEMA concurred
            with the recommendation and will review the final report and

           DHS Financial Assistance to the Association of Community

           Organization for Reform Now (ACORN) and Its Affiliates


                                   Page 13

 supporting documentation provided by OIG and the ACORN
 Institute to assess the merit of suspension and/or debarment if
 funds were inappropriately used.

 OIG Analysis: The steps FEMA plans to take satisfy the intent of
 this recommendation. However, since a timeframe for
 implementing these steps has not been established, this
 recommendation is unresolved, and will remain open until FEMA
 provides documentation that shows corrective actions have been
 completed.




DHS Financial Assistance to the Association of Community
 

Organization for Reform Now (ACORN) and Its Affiliates
 


                        Page 14
 

Appendix A
Purpose, Scope, and Methodology

                   In a letter to the DHS Inspector General, Senator Susan Collins and
                   Representative Darrell Issa expressed concerns about ACORN and
                   its affiliates, and requested that DHS OIG conduct an investigation
                   to address the following issues:

                       1.	 How ACORN Institute could be considered for a Fire
                           Prevention and Safety grant.

                       2.	 Whether DHS awarded any grants, contracts, entitlements
                           and other forms of assistance to ACORN and its affiliates.

                       3.	 Whether DHS has appropriate oversight mechanisms and
                           plans in place for all grants, contracts, entitlements, and
                           assistance (including funds from the American Recovery
                           and Reinvestment Act of 2009) provided to ACORN and its
                           affiliates.

                       4.	 Whether ACORN and its affiliates used the DHS funds they
                           received in accordance with the legislation and terms of the
                           grant, contract, entitlement, or other form of assistance.

                       5.	 Whether DHS conducted an audit of how ACORN spent
                           the FY 2007 funds and whether this audit was used to
                           justify the FY 2008 award. (If not, DHS OIG was asked to
                           conduct an audit.)

                   To address the issues expressed by Senator Collins and 

                   Representative Issa, we reviewed applicable federal laws and 

                   regulations, as well as DHS and FEMA policies and procedures. 

                   Our audit plan included the following procedures: 


                       ¾	 	Compiled a list of 542 ACORN affiliates based on the
                           following sources:

                            1.	 	Congressional Request Letter to DHS OIG

                            2.	 U.S. Representative Darrell Issa’s report, “Is ACORN
                                Intentionally Structured as a Criminal Enterprise?”
                                from the Committee on Oversight and Government
                                Reform dated July 20, 2009

                            3.	 	United States Election Assistance Commission OIG

                            4.	 	ACORN Institute’s Legal Counsel


                  DHS Financial Assistance to the Association of Community 

                  Organization for Reform Now (ACORN) and its Affiliates


                                          Page 15

Appendix A
Purpose, Scope, and Methodology

                       ¾	 	Worked with DHS components to identify financial
                           assistance provided to ACORN and its affiliates from
                           FY 2003 to March 2010. Each DHS component was given
                           the list of 542 possible ACORN affiliates and asked to run
                           queries in its accounting systems to identify disbursements
                           made to these entities.

                       ¾	 	Visited ACORN Institute’s headquarters in New Orleans,
                           LA, to obtain information on how the program was
                           implemented and evaluated; and reviewed documentation
                           to support expenses paid by the grant. Using ACORN
                           Institute’s general ledger, we judgmentally selected
                           $338,675 of grant expenditures to review.

                       ¾	 	Interviewed and obtained information from FEMA officials
                           and staff on the process used to evaluate and award the Fire
                           Prevention and Safety grants to ACORN Institute, and
                           FEMA’s efforts to monitor the FY 2007 Fire Prevention
                           and Safety grant awarded to ACORN Institute.

                       ¾	 	Interviewed an ACORN Institute consultant, which was
                           contracted to prepare the grant application and provide
                           other services for this grant project.

                       ¾	 	Randomly selected 30 of 421 community organizations that
                           applied for the Fire Prevention and Safety grant in FY 2007
                           and analyzed the Technical Evaluation Panel’s
                           recommendation for each applicant. See Appendix D for a
                           summary of the sample.

                   We conducted our audit between November 2009 and April 2010
                   under the authority of the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   on our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   on our audit objectives.




                  DHS Financial Assistance to the Association of Community
 

                  Organization for Reform Now (ACORN) and its Affiliates
 


                                          Page 16
 

Appendix B
Management Comments to the Draft Report




                                                                                            l''>'''''''''''''~~_'"''''''
                                                                                            "''' >,.'  >~.
                                                                                            W,",,,,.,, "'." "

                                                                               ,Ii: FEMA
                                             ,v.... c L. Ricr.aJo,
                                             A"j,,,"~ 1<.'f'OCOO' Ucr>ct,1
                                             orr", <\fh~p<"'~ Geo"..'
          FJ(O~\;                            o.";;.lI.  K;,""",tp(-__-.-
                                             I:'.",""r
                                             Off" <\1 Puliey ,,,,I Pro!7"m          ~r."h~,


          SUIlJEC'T-                         (0=.,",," on OlG D",'I            R'1"'~" TJI rs   ","m",'cI A."'-'.c",",,
                                             10 ,i.,
                                                   .-1"''''.'O!io" ~r (omMr'.'(:I      01»""""''';00' for Refor!"
                                             ,Vuw (.1CORSj ",.. d it> /lt~ii"",

          Th,,", YO" ii" ll", O"r.,rt'·T."y to ,,,,,,<w "',j "'",".m ""., "" n".' O"'e,. of 1"       'J'<"""
          Gee"",I', (010',) ""'jec' "CO" =M            ''1''".A, th' r eMell fm"'t"'""Y M'ro~""t
          "'~"-OY (F(\fA) ~""l., ,,,w,ml "'inin!< i" rmc~<"'. 'ho OIG', ;"'lep<n'l'o' ","l)'~' d'
          p"'U"'''' ~f""",n,c t:=/l" """'Ii" ,." ""li'y ~' o.-liru"d" impn>;'o ,.~ rod"i'i"

          H\IA ""O"" wi,t. ,i, "f'ho ,~,,'l ''T''"'' '""'" "",,""'·"",,'.... i,... ,,,<I b" who
          ""',,"'" 'n imp:"'''''''' I!><TI, r,,, R"""n""c,'";",, ;;1. w, ca" ,,<ilher "",,,,,,, "'.. ",>n_
          "',"'ou, "' ,J... r""'~"'" Li~" ",,';1 ~"hd," """, 'h" 'H"'j""" ",,,..,,,,,,,>I<Ii,,,. WI,il< we
          "in be poo"dj"g 00''''''';''< ><",," pi.,.., ;n ow 9O-d.,.       "",Xl...,. ~.< pro,;"" u'"
          t,,!lo',i"~ i"jOr=,io~,ehhe to ,he "'....'" 'e<omm<odJ.t,oru'

           R"om"",.oI.Hm ~1' hrr' on",'" pm"""""" ,,, ",m;i"" 'h,                    """"'''y
                                                                                  of ,i[,""fi'",,'
                      '-"<" ,"
          .....,""i,,,,., ,h,~, b <1"",-"",,inin~ ~;'" 'Pr'·."""'" ,li['ibi' i')'


          FEMAII... po..... FnU ......... un ..i.hrlJin~OOdh.o... iw:WJ.ge '" tl" "'U.C)Jl~'
          iXlge 10 "".l'lply ·.,i,h ttu, roconur_or<1"lOn oy '''';['1/ til< n>ctl".OC<lJc.y d;"'\l=d io
          KiIOOmm<oo..ti0n n rEM.., "ru"t p'rtorrn , ",,,,pi,,, ",jew ~hll .'-;0'" vdh,n
          "", .~pI,,"i<Jn >r.d ,bo ,,,..,,,d H<J(i "'''".''' y,arly. Hat he;n.~ "";(\,      ."""i",,,
                                                                                                    ".,,,10;"
          ,b<; "IV:>;'~oo will b< ",i<wC(l t!lroOi-' FBlA', "',,"ll LllOflJtO;~ '001 . . ,>0. j!
          "",,,,,,r,'-, ".j' ood ,tI\Y'llU wiil b< "",,,--\cd il it i, dctCtm,,,,--o    t'." ,he ep~j,CUl' 1;0.,
          mi ""l"">,,-.,,,,,I in I""""t,0" pro,i doo or, ,oc .1'1'1'000:;"<1




                        DHS Financial Assistance to the Association of Community 
 

                        Organization for Reform Now (ACORN) and its Affiliates
 


                                                           Page 17
 

Appendix B
DHS OIG Response to Congressional Request




          _omlll,,,d...lo. #2: R....'.. t" A",...,.... =l Cortif>c.tioo .octioo of,.. gratlt
          W.,..i,,,, '" <1",""""" .. xl re";n <vi"""'" U».' ""ph,,,,,,, oclno"lo>Jge a>'I<1 c",Ml' ,1.",-
          Li"')' un<Ie.>""..J the ""'""'l"'""'" ..
                                               xl p"'».lti" fo< i,ocludi"g ;,\OCC\l....to ,,,I,,,,,,.",,,, in
          th<i' W.,.. iOO'

          FE~IA R.,_,.: FEJ.iA """"'-"" with lhi, """""m<oo.n"" .n<!                     'w<""   10 w""k "ilh
                                                                                                  "":'"n
          the FE),1... Offie, of CiJidC''<'IJl!,11o =i"" ,J.,: ,\.,,,,,,,,,,,,,, and C",<\ilicolioo         of
          tbo wmt "!'plio.tion k> d""""""1 on<! ",10m <vi<l<n<o llio.t.w;c>n" ltCloowl<l<l!« on<!
          corti!)' 1:liat tl>o)' umerrlund tho OOn>oqU""''''' onJ _.In"" for induding in""""",,to
          illf'ormlttioo in tbcir _li""lioll',

          _o""""o""tlom 1I3: E",.b1i,~ polk;'" und ProcOO'~'" thot roq\.", ,t.ffto document
          jnsti/icatioo. to ovmide ""b"llTItivo rona:m, Illld r=mmmd.tiom IlUdo 1»' tho
          T",hn1U>1 E",h><>':ioo Poael

          FE:\IA R.,p...., FE)'\'\' """""" "itb lhi' "'ct<IlmeOOotioo and oS"'", to "",",e
          poIici", ond prc><><:d<~", thot ""uir.     ,..If  lo ,\<>L"ment ju,ti ti<IoIioo' to """",(\<:
          ,"b,"",ti"" OOlle= ond roooIIUll<nd,t~", .. by til< ToclJ.ni",1 Fv..""tioo P"""'. Th<
          ",vi.. d pelie'" will be ill plocc within 60 mol" oftb< &'" of thi. 1cttCf, Th<
          jn<tjficatioo. W<r< documon,ed iIllh. P'''';        ho",,,,,,,,,
                                                                         tho new policy on<! pmeedur.. mil
          ..,,;,.. w1tlL o"""",ng lhe jlJl!tiflCalKtill 1n the fixur< oro moro fu]'ome .nd do""

          _""","d...;o.. #4: It"""l>o",-t" key f"",rs 01' ;!ldic.to<" '1lclI '" rhe !\"'-fit".,'
          ex]J<'ri""" ,,'ith the pmgr_ >nd ]moll'" <:oo<:<m, """ut the W>nl«, in rEM'\", ~<k_
          '-"d oPrm"ch L" _'"         11''''''.''"
                                            I,", .>dUo,i"" i" ;!< moo"""io; p1",.

          FE~IA R..pu=.., FD!"'- c,""".'" "it/llbi'      "",,""""">do.ti"" and oS"'"" «I ","'ti,,.,. 'be
          IDl<I;IcriIl~ olforto
                              ""d incrn:p<>r"" '<y lOCI"", ()< ;",heo-trn, '''''h OS 'h< gronte"'"
          ox]J<'ri,oco with tho jIfOll'''''' ond lmoWJ1  <'OIl'' ' '
                                                                 oOOut tho 1>'..0:" in !'EM"'-', riol-
          b"'ed .ppmoch to ,eke< Il'""tc", fa<        iocl""""
                                                            ill it> moni'oringpl..,.

          RecomlllOllclatl. . lI5: Rc""ir< ACORN 1u.lt""tc to rchrn 1160,797 in ulJl!ub,loocilltcd
          iL'_ <Xp<"'''


          "iL_.
          n'lA Re'ponl<: FEJ.iA connol mol.:" tho d<term;n>lloo to 000= "" ,",n""OOCllf
                      t\lo<OUl;h , ...."'''' of the <l<>ou""",""" Ii"<>m the OIG  ,ii,
                                                                                 "i,it. FEMA ",ill
          <<<)U<:3t the n,,,,,,,,.,y U<",oxn=l>-t;on fo< '"" "_l>-nti."xll>'oo( e,P'="" from lho
          ACOR."I ""tiM", A t = "fS~oli.t>",ithill FEMA .,'ill review lhe ""'<:riol" 1ft!>::
          1;' _ _ ccrmQt p<"";(\<: O<IJitio".l '"f'l""'lill!,i""ifio;,""" ~"th' ""1'''''''''-', FEMA "ill
          "'I'"'' the fund< be    ",,",,10".




                        DHS Financial Assistance to the Association of Community
 

                        Organization for Reform Now (ACORN) and its Affiliates
 


                                                             Page 18
 

Appendix B
DHS OIG Response to Congressional Request




          Page.1

          R.ooon_o<blliooo f6: RO'Ijew documenuti.:J, fur tl" UIIl.iDllll: ~ll \,046 of ~t
          fun<!", wnd if "",uWOrtrd '1 '!'Propri.te    "'pel"'''
                                                          dI>t COll be documeoced, ""[ui",
          ACCIIlJ' lrntit"te to «I"" <he tiAtd.

          FlMA R••,"..., FE\l,o. ooncut",ith tlli.< "",,,,,,,,,eMatl,,,,. FEMA will ""lue<t the
          IIC'''''''y tk>cumooloOO, lox !he """,""'OS grO<>(> "'p"odit"'", fro", tbe ACORN
          In.1titutc, A to= ofSl""'ioli.t> ",'itbin HM,o. .,ill rev;"w 'be ","''''.J•. In.., gr"<'>te,
          ,,,,,,,,", provide :tdditimull """portir,~ju>tifio.ti", !c< too o'pc"'''', HMA will    "",.",,,1
          til< fuld, t:.o retum,d.

          11"'00""'0<1."10. '17: Detrrmioe wh«hor oct"", ;, oeca..ry to l113pend ~ debar
          ,o.COR"I In..
          =i,!;>",,,
                        i'""
                          r,,,,,, "",,,,v;,,s fu:uro DHS. FEMA, and other fodenl iL<'".,.,.",tl[


          FE~IA R••,"..., Fl1\l,o. 00<"£"" witb ,11< ,oo"",_t;"" and w;ll           f'O'Ii",,.
                                                                                        th, final
          rq>J<t ",J .upportin~ '""'ym"'..... '" l"'wiu«1 by OK] .n<! U", ,o.OJRN 1n.<1i<"'. 'u
          "'50'" the morit of "-"'P""';'" ,."J/m~'if [",,1, w= i""pl"',pri.Ldy """d.
          UIIIlk)'Oll   ~in    for the   ",,~ity   10 """""""\ "" thi. droJi "'I""t.n<! wo kd forw....J
          to w[)(Jdn~ wit~ )'Oll "" oth" i"""" .. we both ,triY< to iml>"';'o FEMA,




                        DHS Financial Assistance to the Association of Community
 

                        Organization for Reform Now (ACORN) and its Affiliates
 


                                                       Page 19
 

Appendix C
DHS OIG Response to Congressional Requests

1. How could ACORN Institute be considered for a Fire Prevention and Safety
grant?

Community organizations recognized for their experience and expertise in fire prevention
and safety are eligible to apply for the Fire Prevention and Safety Grant. ACORN
Institute, a community organization, applied for this grant in FY 2007 and FY 2008 and
received awards for both fiscal periods. However, ACORN Institute did not have
experience in fire prevention and safety and did not have partners with expertise in this
area in every city it planned to pilot this project. ACORN Institute did not meet the
eligibility requirements for this grant and should not have received these awards.

Further, the Technical Evaluation Panel that reviewed the Fire Prevention and Safety
Grant applications recommended that ACORN Institute’s FY 2007 request not be funded.
After reviewing the FY 2008 application, the Technical Evaluation Panel recommended
that ACORN Institute be awarded the grant only if certain conditions were met. For both
fiscal periods, DHS, through FEMA, overrode the recommendations and awarded the
grants to ACORN Institute without documenting how it addressed the Technical
Evaluation Panel’s concerns and the basis for its decision to award the grants to ACORN
Institute.

2. What DHS grants, contracts, entitlements, and other forms of assistance were
awarded to ACORN and its affiliates?

In FY 2007 DHS, through FEMA, awarded and disbursed $450,484 to ACORN Institute
for a Fire Prevention and Safety Grant. ACORN Institute was awarded another $997,402
grant under this program in FY 2008; however, after Congress denied funding to
ACORN and its affiliates, the FY 2008 award was rescinded and the funds were never
disbursed. Other than the two awards to ACORN Institute under the Fire Prevention and
Safety Program, DHS did not award any other financial assistance to ACORN or its
affiliates.

3. Does DHS have the appropriate oversight mechanisms and plans in place for all
grants, contracts, entitlements, and assistance (including funds from the American
Recovery and Reinvestment Act of 2009) provided to ACORN and its affiliates?

For the Fire Prevention and Safety Grant Program, DHS, through FEMA, did not identify
potential issues that the ACORN Institute could have with its FY 2007 grant, and
therefore did not select it for an oversight review. As a result, FEMA was unaware that
ACORN Institute had not fully implemented or evaluated its grant project and did not
have documentation to substantiate $160,797 of expenses funded by this grant. FEMA
has since implemented a risk-based approach to identify and concentrate its efforts and
resources on grantees based on the assessed risk. OIG will evaluate the adequacy of
FEMA’s new risk-based oversight and monitoring plan at a later date.



                     DHS Financial Assistance to the Association of Community 
 

                     Organization for Reform Now (ACORN) and its Affiliates
 


                                              Page 20
 

Appendix C
DHS OIG Response to Congressional Requests

Since DHS provided no other financial assistance to ACORN and its affiliates, an
assessment was not performed on the adequacy of oversight of its other grants, contracts,
entitlements, and assistance.

4. Did ACORN and its affiliates use DHS funds it received in accordance with the
legislation and terms of the grant, contract, entitlement, or other form of assistance?

The only funds ACORN or its affiliates received from DHS were the $450,484 FY 2007
Fire Prevention and Safety grant awarded to the ACORN Institute. OIG audited this
grant and determined that the ACORN Institute did not fully implement and evaluate the
project according to the approved grant terms. In addition, ACORN Institute could not
demonstrate how it spent $160,797 of these grant funds.

5. Did DHS conduct an audit of how ACORN spent the FY 2007 funds and whether
this audit was used to justify the FY 2008 award?

DHS, through FEMA, did not audit how ACORN Institute spent the FY 2007 funds, and
therefore an assessment of the ACORN Institute’s FY 2007 performance and outcomes
was not available to justify the FY 2008 award. However, DHS OIG did audit the
FY 2007 grant, as presented in this report, and determined that the ACORN Institute had
not fully implemented or evaluated the FEMA-funded project. The ACORN Institute can
not demonstrate how it spent $160,797 of these grant funds.

6. Was a share of federal grant funds received by organizations affiliated with
ACORN provided to the ACORN national headquarters, independent of any
assistance provided on the grant?

We identified journal entries in the ACORN Institute general ledger that transferred funds
to ACORN Inc. These transactions were described as reimbursements for payroll and
employee benefits, and administrative fees due to ACORN Inc. Some of these journal
entries were selected in our sample, and we determined that the ACORN Institute did not
have adequate documentation to support these expenses. As a result, these transactions
have been reported to FEMA in our audit report as unsubstantiated expenses.




                     DHS Financial Assistance to the Association of Community
 

                     Organization for Reform Now (ACORN) and its Affiliates
 


                                             Page 21
 

Appendix D
DHS OIG Analysis of Technical Evaluation Panel Scores


                                                                                            FY 2007 Fire 
                                                          Technical Evaluation 
   Sample No.                 Program Title                                                Prevention and 
                                                          Panel Average Score 
                                                                                        Safety Grant Amount

         1            Arson Detection/Prevention                      94.33%                         $0.00  
         2            Other                                           90.33%                 $  850,000.00  
                      Other                                           88.33%                         $0.00  
         3            General Prevention/Awareness                    87.67%                 $  127,699.00  
                      Other                                           86.33%                         $0.00  
                      Media/PR Campaign                               84.67%                         $0.00  
         4            Smoke Alarm Campaign                            87.13%                 $  384,800.00  
                      General Prevention/Awareness                    85.99%                         $0.00  
                      Media/PR Campaign                               79.00%                         $0.00  
         5            Props/Trailers/Safety Village                   86.67%                         $0.00  
         6            Wildland Fire Mitigation                        86.37%                         $0.00  
         7            Props/Trailers/Safety Village                   86.00%                         $0.00  
         8            Props/Trailers/Safety Village                   83.00%                         $0.00  
         9            Media/PR Campaign                               82.00%                         $0.00  
        10            General Prevention/Awareness                    77.67%                         $0.00  
        11            General Prevention/Awareness                    76.90%                         $0.00  
                      Arson Detection/Prevention                      73.33%                         $0.00  
        12            Code Development/Enforcement                    75.76%                         $0.00  
                      Smoke Alarm Campaign                            75.00%                         $0.00  
        13            General Prevention/Awareness                    74.33%                         $0.00  
        14            Smoke Alarm Campaign                            74.25%                         $0.00  
        15            Smoke Alarm Campaign                            73.67%                         $0.00  
                      Other                                           70.00%                         $0.00  
                      Code Development/Enforcement                    68.56%                         $0.00  
        16            General Prevention/Awareness                    73.00%                         $0.00  
        17            General Prevention/Awareness                    72.67%                         $0.00  
        18            General Prevention/Awareness                    72.00%                         $0.00  
        19            Firefighter Safety                              71.67%                         $0.00  
        20            General Prevention/Awareness                    69.67%                         $0.00  
        21            Other                                           69.33%                         $0.00  
        22            Multi‐Hazard Prevention Programs                69.33%                         $0.00  
        23            Props/Trailers/Safety Village                   69.33%                         $0.00  
                      Smoke Alarm Campaign                            63.34%                         $0.00  
       24             Other                                           64.78%                         $0.00  
       25             General Prevention/Awareness                    64.00%                         $0.00  
       26             General Prevention/Awareness                    62.67%                         $0.00  
  ACORN Institute     General Prevention/Awareness                    62.67%                 $  450,484.00  
       27             Firefighter Safety                              61.75%                         $0.00  
       28             Firefighter Safety                              59.00%                         $0.00  
       29             General Prevention/Awareness                    50.00%                         $0.00  
       30             Other                                Not Eligible  for Program                 $0.00  
 
Source:  Random sample of community organizations; from FEMA FY 2007 Fire Prevention and Safety Grant files 
 




                     DHS Financial Assistance to the Association of Community Organization
                                 for Reform Now (ACORN) and its Affiliates

                                                    Page 22
Appendix E
ACORN Institute – FY 2007 Grant Implementation Plan



     ACTIVITIES                   OUTCOMES                    STRATEGY                                                               KEY TASKS
Activity 1: Design and       Increased education          Involve community        a) Creating a forum for education. Working with our partners on this project, the UFI [Urban Fire Initiative] team
implement a community        among low- to moderate-      members in               will connect local fire departments to underserved populations. New members will be recruited through an
outreach program to          income populations in        neighborhood             intense campaign utilizing partner organizations' newsletters, partner organization's website, door knocking,
residents to generate        target areas, generate       meetings that            flyering, e-mails through the UFI partner listserv, auto-dials, and advertisements through the ACORN Institute tax
requests for in-home         well-trained fire            promote fire             and benefits centers.
audits                       prevention leaders from      education and            b) Holding fire education focused community meetings. Community members will come together for fire safety
                             the community,               prevention               demonstrations at the regular monthly UFI-sponsored meetings. Through the direct partnership with local fire
                             increased access to                                   departments, community members will be instructed in:
                             public officials.                                     • fireproofing homes
                                                                                   • identifying local dangers
                                                                                   • identifying hazardous housing materials
                                                                                   • responsible landscaping
                                                                                   c) Making in-home audits available to community members. At meetings, participants will sign up for in-home
                                                                                   audits done by fire fighters and trained volunteers. Fire safety messages and information concerning the in-home
                                                                                   fire safety audits will be included in UFI partner newsletters and computer listserv. The outreach program will also
                                                                                   include working with local media and using paid print and radio advertising to promote the in-home fire safety
                                                                                   audits.
Activity 2: Develop          Increased self-              Recruit and train        a) Identify local volunteers willing to perform basic in-home risk assessments
Community Volunteers         sufficiency at a             student and              b) All volunteers will participate in a fire safety and prevention training session led by local fire department
who will deliver fire        community level,             community volunteers     personnel. Volunteer would be instructed to:
prevention education to      decreased demand on          from neighborhood        • identify the presence of a smoke detector and a fire extinguisher
1,800 individual             local fire departments for   groups to conduct in-    • identify fire hazards in the home
households.                  outreach, opened doors       home fire safety         • identify landscaping hazards
                             to underserved               audits. Tra ined         • determine if smoke detectors and fire extinguishers are operable
                             communities, increased       volunteers working in    • determine if a rope ladder is needed
                             trust/familiarity between    partnership with local   • determine if a family evacuation plan exists
                             community members            firefighters will        c) Conduct in-home audits focusing on points detailed above
                             and public officials         conduct in-home fire
                                                          safety audits on
                                                          request by the
                                                          homeowner.
Activity 3: Process and      Attained comprehensive       Volunteers and UFI       a) Prepare necessary technology for distribution
analyze the results of the   understanding of             program staff will       b) Identify community members in need of assistance in addressing risks
in-home fire safety          unaddressed home             review audits to         c) Identify community members in need of assistance in case of evacuation
audits                       risks, collected             assess needs             d) Utilize computer-based tracking system developed as part of a previous FEMA funded fire safety
                             necessary information to                              demonstration project in Madison County, North Carolina to process and track the in-home fire safety audits and
                             remediate risks                                       resulting activities




                                                          DHS Financial Assistance to the Association of Community Organization
                                                                      for Reform Now (ACORN) and its Affiliates

                                                                                              Page 23
Appendix E
ACORN Institute – FY 2007 Grant Implementation Plan


     ACTIVITIES                   OUTCOMES                    STRATEGY                                                               KEY TASKS
Activity 4: Remediate        Increased sense of           Using in-home             a) Acquire and install fire safety and protection devices (smoke detectors, fire extinguishers, and rope ladders,
homes which lack fire        community and                assessment results,       where needed.)
safety devices/have          community safety,            trained volunteers will   b) Address identified fire hazard risks
unaddressed risks            minimized risk of            provide necessary         c) Assist in developing family evacuation plans in homes, where needed.
                             undetected fires thus        equipment and             • develop family evacuation plans in home, where needed
                             reducing risk of property    instruction               • couple family evacuation plans with community evacuation plans, identifying those in need of assistance
                             damage, injury, and                                    (elderly, those without transportation, etc.)
                             fatality                                               • help families assemble safety kits
                                                                                    • work with families to address pre-existing medical conditions
Activity 5: Develop a        Foundation laid for future   Map all data to track     a) Working with partner One Economy, ACORN organizers and members of local fire departments will document
computer tool to manage      prevention efforts in        which houses have         • the status of smoke detectors and fire extinguishers
the information acquired     these communities            been served and           • the existence of family evacuation plans
in the in-home fire safety                                which have yet to be      • work done in the household addressing fire risks
audits and the follow-up                                  audited                   b) Map the results of the in-home fire safety audits across the neighborhood using a geographic information
work conducted in each                                                              system component of the computer tool. This will help fire departments and the UFI team target areas where
home audited                                                                        homes have yet to receive in-home fire safety audits.

Source: ACORN Institute approved grant application




                                                          DHS Financial Assistance to the Association of Community Organization
                                                                      for Reform Now (ACORN) and its Affiliates

                                                                                               Page 24
Appendix F
ACORN Institute – FY 2007 Grant Evaluation Plan

                                 ACORN Institute 
 

                      FY 2007 Fire Prevention and Safety Grant 
 

                               EVALUATION PLAN 
 


The personnel hired and specially assigned to this project at each location will be
responsible for the generation of periodic reports concerning progress and effectiveness.
The evaluation will be based on number of members contacted, number of meetings held,
and the data collected from evaluation surveys filled out by community members. The
actual activities will be compared against these goals:

       ¾ Number of requests for in-home fire safety audits generated

       ¾ Number of homes with high risk populations such as children and senior
         citizens where in-home fire safety audits are conducted

       ¾ Number of fire safety devices (smoke detectors and fire extinguishers)
         installed

       ¾ Number of homes where identified fire risks are identified and addressed

       ¾ Number of partners participating in program

       ¾ Number of volunteers participating in the program

       ¾ Number of individuals, children and adults, who participate in fire safety
         demonstrations in community meetings

Source: ACORN Institute approved grant application




               DHS Financial Assistance to the Association of Community Organization
                           for Reform Now (ACORN) and its Affiliates

                                             Page 25
Appendix G
Major Contributors to This Report


                    Michael Siviy, Director
                    Barry Russell, Desk Officer
                    Katrina Bynes, Audit Lead
                    Brian Blaha, Auditor
                    Keith Nackerud, Program Analyst
                    Jeff Mun, Auditor




             DHS Financial Assistance to the Association of Community Organization
                         for Reform Now (ACORN) and its Affiliates

                                           Page 26
Appendix H
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator, Federal Emergency Management Agency
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              DHS Financial Assistance to the Association of Community Organization
                          for Reform Now (ACORN) and its Affiliates

                                            Page 27
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
